Department of Homeland Security
   Ofﬁce of Inspector General


              Management Oversight of 

            Immigration Benefit Application 

                  Intake Processes 





OIG-09-37                                       March 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                      March 5, 2009


                                         Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the effectiveness of United States Citizenship and Immigration
Services’ management oversight in improving timeliness of the immigration benefits
application intake process. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


    Performance Management ..............................................................................................3 

    Recommendation ............................................................................................................5

    Management Comments and OIG Analysis ...................................................................5 


    Pilot Programs and Knowledge Management.................................................................6 

    Recommendations.........................................................................................................10

    Management Comments and OIG Analysis .................................................................10 


    USCIS and Department of State Coordination .............................................................11 

    Recommendation ..........................................................................................................13

    Management Comments and OIG Analysis .................................................................13 


Appendices
   Appendix A:          Purpose, Scope, and Methodology .........................................................15 

   Appendix B:          Intake Process..........................................................................................17 

   Appendix C:          Management Comments to the Draft Report ..........................................19 

   Appendix D:          Major Contributors to this Report ..........................................................22 

   Appendix E:          Report Distribution ..................................................................................23 


Abbreviations
     DHS                 Department of Homeland Security 

     GAO                 Government Accountability Office 

     OIG                 Office of Inspector General 

     USCIS               United States Citizenship and Immigration Services 





                     Management Oversight of Immigration Benefit Application Intake Processes
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Since its inception in 2003, U.S. Citizenship and Immigration Services
                   has faced challenges in the timely processing of immigration benefit
                   applications, including a backlog of nearly 3.7 million applications
                   transferred from the Immigration and Naturalization Service. We
                   reviewed U.S. Citizenship and Immigration Services’ efforts to
                   improve timeliness of the application intake process. For a detailed
                   description of the intake process, please see Appendix B.

                   Although U.S. Citizenship and Immigration Services has taken steps to
                   improve intake process timeliness, such as implementing process
                   changes and pilot programs, it has not established adequate measures
                   to assess performance of its application intake process. Further, the
                   agency would benefit from a knowledge management system to collect
                   and share information on successful, locally based pilot programs and
                   field office improvement initiatives. Currently, headquarters
                   management may not be aware of and does not gauge the success of
                   field office pilot programs and initiatives, thereby missing an
                   opportunity to leverage local success nationwide. The need for
                   management oversight of improvement efforts coupled with the
                   absence of a knowledge management system risk inefficient use of
                   resources, duplication of effort, and lost institutional knowledge. They
                   also undermine efforts to improve intake processing time and
                   eliminate the backlog of immigration benefit applications.

                   U.S. Citizenship and Immigration Services recognizes that Department
                   of State actions could hinder its timely intake of immigration benefit
                   applications and has taken steps to improve communication with the
                   Department of State. However, without a formal agreement on
                   coordination of the roles and responsibilities of the two agencies, there
                   is no assurance that the improved communication will continue.

                   We are recommending that U.S. Citizenship and Immigration Services
                   develop baseline performance measurements, enhance oversight of
                   pilot programs, implement a knowledge management system, and
                   formalize an agreement with the Department of State to improve
                   immigration benefit application processing.



            Management Oversight of Immigration Benefit Application Intake Processes

                                            Page 1
Background
                         Prior to March 2003, the Immigration and Naturalization Service was
                         responsible for administering programs that provide qualified
                         applicants with immigration benefits. These benefits include
                         citizenship, lawful permanent residency, family- and employment-
                         related immigration, employment authorization, intercountry
                         adoptions, asylum and refugee status, replacement immigration
                         documents, and foreign student authorization.

                         The annual number of immigration applications received increased
                         from 4,138,000 in 1994 to 6,059,000 by 2000. The Immigration and
                         Naturalization Service was unable to handle the increased workload
                         due to technology and staffing issues, which resulted in a backlog of
                         more than 2 million immigration benefit applications by 2001.1 In
                         2002, the Immigration and Naturalization Service launched a Backlog
                         Elimination Plan in an effort to better manage the processing
                         workload.

                         U.S. Citizenship and Immigration Services (USCIS) inherited the
                         backlog when the benefit processing functions of the Immigration and
                         Naturalization Service were transferred to the Department of
                         Homeland Security (DHS) in 2003. In December 2003, USCIS faced
                         a backlog of approximately 3.7 million applications. USCIS reviewed
                         and updated the Backlog Elimination Plan in an effort to reduce
                         processing times to a 6-month cycle time for all applications. USCIS
                         also stated that it would increase its focus on information technology
                         to ensure that backlog reduction is sustained, customer service is
                         improved, new fee-for-service business models are enabled, and an
                         improved technology environment is deployed.

                         Our September 2005 review of USCIS’ information technology
                         environment showed that USCIS had not adopted a focused approach
                         to updating its legacy systems and manual workflow practices.2
                         Rather, information technology planning and implementation were
                         conducted in a reactive and decentralized manner across the
                         organization. Additionally, USCIS relied on personnel rather than
                         technology to meet its backlog reduction goals. Our report
                         recommended that USCIS develop a modernization strategy,
                         including short- and long-term goals, funding plans, and performance
                         measures to guide USCIS entities in better accomplishing their
                         citizenship and immigration services missions.

1
  Immigration Benefits: Several Factors Impede Timeliness of Application Processing (GAO-01-488, May 

2001). 

2
  USCIS Faces Challenges in Modernizing Information Technology (OIG-05-41, September 2005). 

                  Management Oversight of Immigration Benefit Application Intake Processes

                                                  Page 2
                           Subsequently, USCIS initiated an agencywide transformation program
                           to improve both business processes and the supporting information
                           technology systems. Our November 2006 followup report on
                           transformation progress stated that USCIS was continuing its pattern
                           of planning and beginning improvement initiatives, but not fully
                           implementing the plans to deliver promised results.3 Our report
                           identified a need for better performance measures for pilot programs
                           and initiatives. A July 2007 Government Accountability Office report
                           on the transformation program similarly discussed the need for USCIS
                           to identify specific performance measures and targets for its pilot
                           programs.4

Results of Audit
                           Although USCIS has taken steps to improve the timeliness of the
                           application intake process, additional management oversight is needed.
                           Specifically, USCIS has not developed adequate baseline performance
                           measures to gauge timeliness of application intake processes or the
                           effectiveness of pilot projects and other initiatives, many of which are
                           implemented locally by USCIS field offices. USCIS also has not
                           provided adequate oversight of the pilot programs and local initiatives,
                           or developed a method, such as a knowledge management approach, to
                           collect and share information from the various improvement initiatives
                           agencywide. These shortfalls in managing improvement initiatives
                           risk wasted resources, duplication of effort, and lost institutional
                           knowledge through turnover and attrition. They also undermine
                           USCIS’ efforts to eliminate the backlog of immigration benefit
                           applications.

                           Further, DHS lacks a formal agreement with the Department of State
                           on their respective roles and responsibilities and how they will
                           communicate and cooperate to help ensure timely processing of
                           immigration benefits.

         Performance Management
                           Federal guidelines in the Office of Management and Budget’s policies
                           and in the Government Performance and Results Act of 19935 address
                           the importance of being able to measure and assess program outputs.
                           According to the Results Act, agencies are required to express goals in
                           an objective, quantifiable, and measurable form and to establish

3
  USCIS’ Progress in Modernizing Information Technology (OIG-07-11, November 2006). 

4
  USCIS Transformation: Improvements to Performance, Human Capital, and Information Technology

Management Needed as Modernization Proceeds (GAO-07-1013R, July 2007). 

5
  P.L. 103-62, 107 Stat. 285 (Aug. 3, 1993) (codified in various sections of titles 5 and 31 U.S.C.), Section 

4(b)(a). 

                    Management Oversight of Immigration Benefit Application Intake Processes

                                                      Page 3
                           performance indicators for measuring or assessing the relevant
                           outputs, service levels, and outcomes of each program activity.

                           USCIS has not established adequate measures to assess the
                           performance of its application intake process. USCIS has established
                           performance measures for some intake activities, such as lockbox and
                           mailroom operations performed by contractors, but these measures are
                           not sufficient to gauge the success of the overall process or
                           improvement initiatives. To gauge performance, measures should
                           include the length of time required at each step of the intake process,
                           beginning with the receipt of benefit applications at USCIS. The
                           process is wide-ranging, involving mailroom operations; file assembly;
                           data collection, capture, and scanning; document preparation; fee
                           collection and processing; file room operations; and Interagency
                           Border Inspection System name security checks.6 Appendix B
                           provides a detailed description of USCIS’ application intake process.

                           In the absence of adequate performance measures, USCIS senior
                           management focuses on average cycle times as a means of managing
                           workloads. To determine average cycle times, senior management
                           first calculates the number of active pending applications, i.e., the total
                           number of applications awaiting adjudication minus those applications
                           that USCIS has determined are outside its control, such as applications
                           awaiting Federal Bureau of Investigation name checks. From the
                           number of active pending applications, USCIS subtracts the number of
                           applications received in each preceding month until it reaches near
                           zero. The number of months it takes to get to zero without generating
                           a negative result is the approximate number of months USCIS
                           determines it takes to adjudicate an application. In Table 1, August
                           and July receipts are subtracted from total active pending applications
                           before reaching a negative number. Thus, it is determined that the
                           cycle time for this application is at least 2 months.

                           Table 1: Example of Cycle Time Calculation

                                                                                         Number of
      Active                                                                              Months
     Pending        Less                                        Less                       Before                      Cycle
    Applications   August                Less July              June        Negative      Negative     Remainder      Time (in
    August 2007    Receipts     Net      Receipts      Net     Receipts     Amount         Result      (921/5399)     Months)
      11,402       5,851       5,551      4,630        921      5,399        -4,478         2.00          0.17          2.17




6
  The Interagency Border Inspection System name check is a multi-agency effort, combining information from
multiple agencies and databases to compile data relating to national security risks, public safety issues and other
law enforcement concerns.
                   Management Oversight of Immigration Benefit Application Intake Processes

                                                      Page 4
       USCIS relies heavily on such cycle time calculations to determine
       needed changes to workload distribution and staff allocation. The
       agency recognizes the limitations of its current information technology
       systems, which do not provide accurate processing statistics, such as
       aging reports from which average wait times or processing times can
       be calculated based on the actual processing age of each case. Making
       workload adjustments based on average cycle time may temporarily
       alter the productivity of a specific product line. However, this method
       does not help identify bottlenecks in the process or areas where
       efficiencies may be gained agencywide.

       USCIS would benefit from developing baseline performance measures
       to evaluate the efficiency and effectiveness of its ongoing operations
       before investing resources, time, and energy in trying new methods.
       Establishing a baseline would help identify areas for improvements.
       Establishing a baseline would also provide a good benchmark against
       which to measure improvement progress. Without a baseline, USCIS
       risks wasting resources by implementing pilot programs and initiatives
       that cannot be evaluated for effectiveness in reducing processing
       times, thus undermining efforts to eliminate the backlog of
       immigration benefit applications.

Recommendation
       We recommend that the Acting Director of USCIS:

       Recommendation #1: Develop sufficient baseline performance
       metrics for application intake processes and use them to measure
       processing timeliness and identify areas for improvement.

Management Comments and OIG Analysis
       The Acting Deputy Director provided written comments on a draft of
       this report. A copy of USCIS’ response, in its entirety, is included as
       Appendix C.

       USCIS Response: USCIS concurred with recommendation 1
       regarding the need for baseline performance metrics. In its response,
       USCIS said that over the next 18 months the transition of its intake
       process from USCIS operated Service Centers to Department of
       Treasury sponsored lockbox facilities, i.e., a bank, will be completed.
       The Department of Treasury, in partnership with USCIS, has
       established performance expectations for the lockbox provider, which
       include a 24 hour processing time for properly completed applications
       with the appropriate fee attached. In addition, USCIS discussed
       already having specific time models for each process step in normal
Management Oversight of Immigration Benefit Application Intake Processes

                                Page 5
            naturalization and field adjustment cases, as well as plans to expand
            them to other products.

            OIG Analysis: We consider USCIS’ proposed actions responsive to
            the recommendation. The recommendation will remain resolved, but
            open pending receipt of documentation that (1) describes the
            performance expectations that will be in place once USCIS’ intake
            process transition is complete, (2) discusses in detail the time models
            to be expanded to other product lines, and (3) identifies which
            additional product lines will use the time models.

Pilot Programs and Knowledge Management
            USCIS has not effectively managed its pilot programs and initiatives
            for improving application intake timeliness and efficiency. Because
            the agency has allowed field offices to implement independently new
            processing methods in an ad hoc manner to help increase productivity,
            the pilot initiatives have not always been well planned, documented, or
            evaluated. Without baseline performance measures, there is no way to
            evaluate the programs’ effectiveness. Better oversight would help
            maximize the benefits from the time and resources expended to
            improve immigration benefit application intake.

            Pilot Programs

            The Government Performance and Results Act of 1993 and Office of
            Management and Budget Circular A-123, discuss the importance of
            properly managing and overseeing pilot programs to ensure their
            success. Specifically, the Results Act requires agencies to evaluate
            pilots and experimental programs that are designed to improve
            mission delivery, including efficiency, national security, and
            customer service, before implementing such programs on a large
            scale. Also, according to Revised Office of Management and Budget
            Circular A-123, Management’s Responsibility for Internal Controls,
            information should be communicated to relevant personnel at all
            levels within an organization, and such information should be
            relevant, reliable, and timely.

            However, USCIS has not effectively managed its pilot improvement
            initiatives as federal guidelines require. Typically, USCIS’ Office of
            Domestic Operations has taken a decentralized approach and relied on
            the knowledge and subject matter expertise of its field managers to
            implement pilot programs or process changes they believe would work
            well for their areas without central oversight. According to
            headquarters managers, they do not take an active role in learning what
            initiatives their field offices are implementing because they do not
     Management Oversight of Immigration Benefit Application Intake Processes

                                     Page 6
       want to stifle innovation. Domestic Operations officials also have said
       that the term “pilot” is used too freely within USCIS, and that they do
       not need to oversee all of the individual projects implemented by field
       offices because they do not consider them “official pilots.”

       We identified at least three pilots and several other process changes
       implemented by USCIS field offices to improve timeliness and
       efficiency of the immigration benefit application intake process.
       Without central oversight, the pilots were not always properly planned,
       documented, or evaluated. Further, without baseline performance
       measurements, there was no objective means of assessing whether
       these initiatives improved efficiency and timeliness or whether they
       could or should be replicated to improve the immigration benefit
       application intake processes agencywide. For example:

       �	 90-Day program - The National Benefits Center began this pilot in
          2005 to determine whether USCIS could provide applicants with
          final decisions on their “I-485” adjustment-of-status cases within
          90 days of receipt, thus eliminating the need for interim benefits,
          such as employment and travel authorization. To meet the 90-day
          timeframe, the National Benefits Center identified the applications
          for the test offices, attempted to complete the intake processes for
          these applications by day 50, and then forwarded the adjudication-
          ready files to the field offices, giving them approximately 40 days
          to complete the adjudications. The National Benefits Center
          tracked the average amount of time each office took to process its
          I-485 applications under the pilot scenario.

           However, Domestic Operations officials did not monitor the test
           offices to guide them in meeting pilot objectives. As of October
           2007, more than 80% of the test offices had not met the 90-day
           cycle time. Without evaluating these results, USCIS deployed the
           pilot to its field offices, with little assurance that it could achieve
           the intended results agencywide.

       �	 I-485 Plus pilot - The Texas Service Center began this pilot to
          determine whether “bundling,” or keeping forms concurrently filed
          by an individual or members of the same family together during
          the data entry phase, would reduce total cycle times. The bundled
          forms included applications for employment-based adjustment of
          status, employment authorization, and travel documents. The field
          office’s plan for implementing this pilot did not include
          benchmarks or goals to evaluate the pilot’s success.

       �	 Interagency Border Inspection System pilot - The Vermont Service
          Center began this pilot in April 2005 to determine whether
Management Oversight of Immigration Benefit Application Intake Processes

                                Page 7
           efficiencies could be gained by using contractors rather than
           adjudicators to perform steps within the Interagency Border
           Inspection System process. Service Center officials maintained
           some documentation on monitoring and the performance of this
           pilot, but suspended the pilot after determining that they did not
           have the baseline statistics with which to compare contractor
           efforts to government quality or efficiency levels. Vermont
           officials informally considered the Interagency Border Inspection
           System pilot a success, but USCIS decided not to implement it as
           part of its day-to-day processes owing to policy and funding issues.

       In addition to the pilot programs, field offices altered standard
       processes in attempts to gain efficiencies in their local work
       environments. However, these independent efforts generally were not
       shared and therefore were not known agencywide. Any benefits and
       efficiencies resulting from these process changes have not been
       quantified. For example:

           �	 The Texas Service Center contacts applicants by phone during
              the intake process to obtain missing information or correct
              apparent discrepancies on applications. This way, the Service
              Center can continue processing the applications instead of
              returning them to the applicants for more information. Center
              officials said that this process has helped save time and reduce
              intake delays; however they have not quantified the efficiencies
              achieved.

           �	 California Service Center managers determined that including
              adjudicators in the Interagency Border Inspection System Unit
              to review and adjudicate cases after Interagency Border
              Inspection System issues have been resolved is more efficient
              than returning the cases to the original adjudicators, as is done
              at other centers. The Interagency Border Inspection System
              process involves reviewing entire application packages page by
              page to identify names and aliases for applicants, petitioners,
              and beneficiaries. The names are queried against criminal
              databases, such as the National Crime Information Center, to
              identify any criminal history. Adjudication can begin only
              after all system hits are researched and resolved.

       Better oversight could ensure the planning, documentation, and
       evaluation of the various pilots and initiatives to promote their
       effectiveness. It would help maximize the benefits, both efficiencies
       and cost savings, from the time and resources expended to improve
       immigration benefit intake processes. By establishing goals and
       benchmarks, USCIS also could measure progress, eliminate initiatives
Management Oversight of Immigration Benefit Application Intake Processes 


                                Page 8 

       that are not working well, and identify successful initiatives that
       should be implemented agencywide.

       Knowledge Management

       USCIS would benefit from an institutional means of storing or sharing
       the knowledge and lessons learned from its pilot programs.
       Knowledge management is the process by which organizations
       generate value from their intellectual and knowledge-based assets.
       Most often, generating value from such assets involves codifying what
       employees, partners, and customers know, and sharing that
       information among employees and departments in an effort to devise
       best practices.

       Such an approach could be extended to capturing and sharing data
       from the various pilots across the agency to improve benefits
       application intake and processing. Although USCIS identified a need
       for a knowledge management approach in its strategic plans,
       management has not implemented a method to collect and share
       agency knowledge and process improvement information. In its 2005
       strategic plan, USCIS considered knowledge management to be a
       critical element of a continuous learning culture. USCIS planned to
       foster organizational and individual achievement by promoting
       continuous learning through training, career development, and
       knowledge management within USCIS. Again, in its 2008 strategic
       plan, USCIS said it would expand its central repository for laws,
       policies, and standard operating procedures to include best practices
       and other pertinent information by creating, structuring, archiving, and
       sharing valuable institutional knowledge and making it readily
       available to employees.

       To date, USCIS has not implemented a knowledge management
       approach to gather and share information or the results of pilots and
       improvement initiatives agencywide. Therefore, USCIS risks
       duplicating efforts and wasted resources. For example, the California
       Service Center used the “bundling” process of keeping family-based
       adjustment of status (I-485) applications concurrently filed during the
       data entry phase to reduce total cycle times. Texas Service Center
       officials had implemented a similar pilot, but California officials did
       not coordinate with them before starting their initiative to leverage
       lessons learned or determine success rates. Without effective
       coordination, USCIS field offices risk duplication and cannot benefit
       from either the success or knowledge gained from each other’s
       improvement initiatives.



Management Oversight of Immigration Benefit Application Intake Processes

                                Page 9
       Similarly, the Vermont office did not coordinate with the National
       Benefits Center before starting its pilot to determine whether
       efficiencies could be gained by using contractors rather than
       adjudicators to perform steps within the Interagency Border Inspection
       System process. Central coordination could have ensured that the
       Vermont Service Center did not spend unnecessary time and money
       pilot testing processes that were already in place at the National
       Benefits Center.

       Without a knowledge management approach, USCIS also risks losing
       institutional knowledge because of the high turnover and attrition the
       agency has experienced in key positions. In the Office of Domestic
       Operations alone, 24 of 27 key management positions experienced
       turnover within from 2005 to 2008. Office directors said they could
       not speak historically about the pilot efforts because they were new to
       their positions. This matter is aggravated because USCIS meetings
       between senior management and field offices are not always
       documented.

       Implementing a knowledge management approach would help USCIS
       mitigate the loss of historical knowledge from recurring turnover. It
       would help ensure that information obtained from each pilot is
       documented, stored, and available for future use. Further, with the
       implementation of a knowledge management approach, USCIS will be
       better equipped to properly train new staff on their processes and
       improvement initiatives.

Recommendations
       We recommend that the Acting Director of USCIS:

       Recommendation #2: Improve oversight of pilot programs and new
       initiatives to ensure they are properly planned, documented, and
       evaluated.

       Recommendation #3: Implement a knowledge management
       approach by which data from experimental processes can be stored,
       evaluated, and shared adequately to increase its usefulness.

Management Comments and OIG Analysis
       USCIS Response: USCIS concurred with recommendation 2
       regarding the need for improved oversight of pilot programs and
       initiatives. In its response, USCIS acknowledged that improvements
       need to be made in the implementation, management, and analysis of
       pilot programs, and stated that establishing baseline performance
Management Oversight of Immigration Benefit Application Intake Processes 


                                Page 10 

             measures are an absolute necessity to determine whether or not the
             protocols being pilot tested are feasible and effective. USCIS stated it
             will begin using successfully managed pilot templates and protocols
             established by its Transformation Program Office for future
             headquarters-sponsored pilots. USCIS will also use performance
             measurements to accurately gauge the effectiveness of future pilot
             programs.

             OIG Analysis: We consider USCIS’ proposed actions responsive to
             the recommendation. The recommendation will remain resolved but
             open pending receipt of documentation describing in detail USCIS’
             improvements, including pilot program templates and protocols for
             managing headquarters-sponsored pilot programs, and policies and
             procedures for using performance measurements for pilot programs.

             USCIS Response: USCIS concurred with Recommendation 3. In its
             response, USCIS agreed with the need for a knowledge management
             approach and is conducting an assessment of how best to meet this
             requirement. As noted in its Strategic Plan, USCIS will work to
             implement a plan that can benefit multiple components of the agency.

             OIG Analysis: We consider USCIS’ proposed actions responsive to
             the recommendation. The recommendation will remain resolved but
             open pending receipt of documentation indicating that a knowledge
             management approach has been implemented, and that said approach
             provides for a method to store, evaluate, and share data from
             experimental processes.

USCIS and Department of State Coordination
             USCIS and the Department of State have joint responsibility for the
             timeliness of immigration benefits. For example, USCIS immigration
             benefits are dependent on the availability of visas issued by the
             Department of State. USCIS has taken steps to improve
             communication with the Department of State to help manage the
             impact of its visa availability decisions on the timeliness of
             immigration benefits processing. However, these steps could be
             formalized to ensure lasting coordination.

             Visa Bulletin Effect on USCIS

             By statute, the Department of State determines the number of available
             family- and employment-based visas. An immigrant visa is considered
             available, and an adjustment of status application can be filed and
             processed, when the applicant has a priority date earlier than the cutoff


      Management Oversight of Immigration Benefit Application Intake Processes

                                     Page 11
                          date identified on the visa bulletin.7 USCIS cannot accept an
                          application and begin the adjudication process in advance of visa
                          availability. USCIS also cannot limit the number of applications
                          accepted in a given month to the actual number of visas available.
                          Rather, USCIS is required to process all applications qualifying for
                          adjustment of status based on the visa bulletin.

                          In July 2007, USCIS recognized the need for improved
                          communication with the Department of State when the department’s
                          visa bulletin resulted in a surge of employment-based immigration
                          applications. The Department of State issued visa bulletins making
                          visas available for all qualified candidates in nearly every
                          employment-based category. USCIS was required to accept all
                          employment-based applications filed that month, which flooded
                          USCIS with approximately 800,000 applications. USCIS was delayed
                          in the intake of these applications because the volume received
                          exceeded its processing capacity.

                          Interagency Communication

                          To better manage the impact of these visa availability decisions,
                          USCIS enhanced its monthly meetings with the Department of State.
                          USCIS now provides the Department of State with information on the
                          number of adjustment of status applications it has on hand, by country,
                          to help the Department of State better determine the cutoff date for the
                          visa bulletin each month. This improved communication has benefited
                          both agencies by assisting the Department of State in better managing
                          visa allocations to ensure that annual limitations are not exceeded, and
                          by improving USCIS’ ability to target production to ensure that it uses
                          all available visas when there is sufficient demand. In its May 2008
                          visa bulletin, the Department of State acknowledged, “Many of the
                          employment cut-off dates have continued to advance more rapidly
                          than might ordinarily be expected. This is a result of consultations
                          with USCIS regarding their pending demand….”

                          Representatives from both agencies continue to meet monthly, but
                          without a formal memorandum of understanding to firmly establish
                          these procedures, there is no assurance that these improvements will
                          be sustained. For example, although the agencies communicated in
                          meetings hosted by the USCIS ombudsman at the time, this less formal
                          arrangement was not sufficient to prevent the July 2007 surge of
                          applications.

7
  The priority date determines when a person can apply for an immigrant visa. In family immigration, the
priority date is the date when the petition was filed at a U.S. Citizenship and Immigration Services office or
submitted to an embassy or consulate abroad. In employment immigration, the priority date may be the date the
labor certification application was received by the Department of Labor.
                   Management Oversight of Immigration Benefit Application Intake Processes

                                                   Page 12
                         This memorandum of understanding would not be the first between the
                         agencies. In May 2006, USCIS and the Department of State, through
                         the Bureau of Consular Affairs, signed a memorandum of
                         understanding that set forth the communication protocols for sharing
                         data from their various information systems. 8 The memorandum of
                         understanding gave USCIS access to a history of visa applications and
                         adjudications for subjects applying for immigration and other benefits.
                         The Department of State obtained access to information about USCIS
                         adjudications of benefits or petitions and other decisions relating to
                         nonimmigrant and immigrant visas and naturalization cases. This
                         agreement provided a foundation for information sharing, but it was
                         not enough to prevent the Department of State from issuing the July
                         2007 visa bulletin.

                         USCIS needs to clearly identify the type and frequency of
                         communication needed to influence Department of State visa bulletin
                         decisions and formalize these agreements in an official document.
                         Similar communication could be established with the Department of
                         State regarding other issues such as family-based adjustment of status
                         visa bulletins, which affect the number of family-based immigration
                         benefit applications filed. The capacity limits of family-based
                         immigration benefit applications and the impact of these visa bulletins
                         have not been included in the monthly discussions because, to date,
                         they have not been problematic for USCIS. Nonetheless, establishing
                         formal communication on these issues could help prevent future
                         problems.

                 Recommendation
                         We recommend that the Acting Director of USCIS:

                         Recommendation #4: Develop a memorandum of understanding with
                         the Department of State to formalize agreements to ensure continued
                         communication and coordination regarding visa bulletins and to
                         mitigate their impact on USCIS benefits application processing.

                 Management Comments and OIG Analysis
                         USCIS Response: USCIS did not concur with Recommendation 4 on
                         formalizing agreements with the Department of State to coordinate on
                         visa availability. In its response, USCIS did not agree that a new

8
 Memorandum of Understanding between Bureau of Consular Affairs, Department of State, and U.S.
Citizenship and Immigration Services, Department of Homeland Security, for the Exchange of Visa and
Immigration Data, May 2006.
                  Management Oversight of Immigration Benefit Application Intake Processes

                                                 Page 13
       memorandum of understanding with the Department of State is
       necessary to ensure the two agencies communicate effectively.
       Rather, USCIS discussed that since the summer of 2007, USCIS has
       worked very closely with the Department of State to facilitate and
       establish visa availability cut-off dates for the upcoming months, and
       has met monthly with Department of State in person to discuss and
       resolve issues relevant to visa issuance. In addition, USCIS stated that
       the ongoing working sessions and continued dialog with immigration
       partners at Department of State is more effective than another
       intergovernmental memorandum of understanding.

       OIG Analysis: We maintain our position that a memorandum of
       understanding between USCIS and the Department of State is
       necessary to ensure continued communication and cooperation. We
       commend USCIS efforts to build stronger, more effective relationships
       with its immigration partners at Department of State; however, we
       request that USCIS reconsider its non-concurrence with the need for a
       memorandum of understanding and provide updated information on
       implementation activities within 90 days of the date of this final report.




Management Oversight of Immigration Benefit Application Intake Processes

                               Page 14
Appendix A
Purpose, Scope, and Methodology

                     Our objective was to determine the efficacy of management
                     oversight of application intake activities to improve the timeliness
                     of immigration benefit processing. We did not limit our audit to a
                     specific type of benefit or application, but rather focused on
                     management oversight of processes for intake of all types of
                     immigration benefit applications filed domestically via direct mail.
                     Application intake includes processes needed to assemble an
                     application so that it will be ready for adjudication. Such
                     processes include mailroom operations, file assembly, data capture
                     and collection, fee collection and receipting, file room operations,
                     and Interagency Border Inspection System checks.

                     We toured and physically observed the processes at USCIS’
                     National Benefits and National Records Centers, and the Texas and
                     California Service Centers. In addition, we performed multiple
                     site visits to USCIS’ Office of Domestic Operations. We reviewed
                     prior DHS OIG, Government Accountability Office, and USCIS
                     ombudsman’s reports discussing USCIS’ application intake
                     process and related USCIS challenges.

                     We identified USCIS’ application intake locations and the
                     procedures and responsibilities of the National Benefit Center, the
                     National Records Center, and the Texas and California Service
                     Centers.

                     In addition, we interviewed USCIS managers and personnel and
                     reviewed documents and records to determine areas potentially
                     affecting the timely intake of applications, including:

                          �   Internal and External Communication
                          �   Central Monitoring of Domestic Operations Pilot Programs
                          �   Documentation of Meetings and Best Practices
                          �   Attrition and Management Turnover
                          �   Use of a Knowledge Management Approach

                     We conducted our audit at USCIS headquarters in Washington,
                     DC, and at the National Benefits Center and the National Records
                     Center in Lee’s Summit, MO. Also, we performed fieldwork at the
                     Service Centers in Dallas, TX, and Laguna Nigel, CA.

                     We conducted this performance audit between September 2007
                     and July 2008 according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     on our audit objectives. We believe that the evidence obtained

            Management Oversight of Immigration Benefit Application Intake Processes

                                           Page 15
Appendix A
Purpose, Scope, and Methodology

                     provides a reasonable basis for our findings and conclusions based
                     on our audit objectives.

                     We would like to extend our appreciation to USCIS for the
                     cooperation and courtesies extended to our staff during this audit.




            Management Oversight of Immigration Benefit Application Intake Processes

                                           Page 16
Appendix B
Intake Process

                     Within USCIS, the Office of Domestic Operations is responsible
                     for the intake, or receipt, of most immigration benefit applications.
                     Intake of application packages occurs primarily by direct mail at
                     five locations: four Service Centers and the National Benefits
                     Center. Although the intake processing at each location is similar,
                     there are some variations to the processes among the locations, as
                     discussed below.

                     National Benefits Center

                     The National Benefits Center uses a lockbox facility to accept and
                     begin processing for adjustment of status and other immigration
                     benefit applications. The lockbox is administered by a bank under
                     contract with the Department of the Treasury responsible for fee
                     receipting, fee deposit, and initial data entry.

                     The intake process at the lockbox differs from the service centers
                     because it uses scanning technology to transfer data automatically
                     to USCIS’ information systems. Lockbox personnel ensure that
                     basic information is included with an application package, but
                     render no decision on an applicant’s eligibility for benefits. If a
                     problem with an application package is discovered, the application
                     package is returned to the applicant with a description of the
                     error(s). Files are assembled for properly filed cases and
                     forwarded to the National Benefits Center for further intake
                     processing. At the National Benefits Center, contractors ensure
                     that files are assembled correctly, conduct initial background
                     security checks, and complete initial evidence reviews for each
                     application package. If evidence is missing or incomplete, a
                     request for evidence letter is sent to the applicant. Ultimately, the
                     National Benefits Center forwards applications requiring
                     interviews to USCIS’ district offices for interview and
                     adjudication. The Center also adjudicates interim benefits that do
                     not require an interview.

                     Service Centers

                     Most other applications, including employment-based benefits and
                     naturalization applications, are mailed to one of four Service
                     Centers. Generally, intake of applications at the Service Centers
                     involves the following steps:

                     Mailroom Operations: Applicants file application packages with
                     specific post office boxes based on application type. Contractors
                     pick up the mail from the post office or receive applications
                     submitted by courier directly at the Service Center. Once received,
            Management Oversight of Immigration Benefit Application Intake Processes

                                           Page 17
Appendix B
Intake Process

                     the application packages are opened, sorted, logged, date stamped,
                     and, based on application type, routed to the appropriate area for
                     data collection.

                     Data Collection: Contractors review the applications for
                     completeness, jurisdiction, signature, and correct fee. When the
                     application is incomplete, such as missing a signature or a fee, it
                     can be rejected and a letter explaining the deficiency is sent to the
                     applicant. Once an application is accepted, the clerk manually
                     enters the applicant’s information into USCIS’ information system,
                     and the fee is receipted. Once receipted, a letter is generated by
                     the system and sent to the applicant with a receipt date.

                     File Room Operations and Interagency Border Inspection System
                     Checks: After data collection, applications are forwarded to the
                     file room, where Interagency Border Inspection System checks are
                     conducted. For most forms, the Interagency Border Inspection
                     System check requires a review of the entire application package to
                     identify the names and aliases of applicants, petitioners, and
                     beneficiaries. The names are queried against criminal databases,
                     such as the National Crime Information Center, to identify any
                     criminal history. A decision to grant an application can occur only
                     after all Interagency Border Inspection System hits are researched
                     and resolved. Applications are stored in the file room until an
                     adjudication officer requests them for review.

                     Applications filed with the Service Centers are not checked for
                     initial evidence during the intake process.




            Management Oversight of Immigration Benefit Application Intake Processes 


                                            Page 18 

Appendix C
Management Comments to the Draft Report




           Management Oversight of Immigration Benefit Application Intake Processes 


                                           Page 19 

Appendix C
Management Comments to the Draft Report




           Management Oversight of Immigration Benefit Application Intake Processes 


                                           Page 20 

Appendix C
Management Comments to the Draft Report




           Management Oversight of Immigration Benefit Application Intake Processes 


                                           Page 21 

Appendix D
Major Contributors to this Report

                     Phillip Maulden, Division Director
                     Yesi Starinsky, Audit Manager
                     Andrew Herman, Auditor
                     Virginia Feliciano, Auditor
                     Sandra Ward-Greer, Auditor
                     Pamela Lokeman, Auditor
                     Dennis Deely, Referencer




            Management Oversight of Immigration Benefit Application Intake Processes

                                           Page 22
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Acting USCIS Director
                      USCIS Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




            Management Oversight of Immigration Benefit Application Intake Processes 


                                            Page 23 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
